CERTIFICATE OF WORD COUNT
NO. TBD
Akeva LLC,
Petitioner,
v.
Nike et al.,
Respondents.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the AKEVA LLC PETITION FOR
WRIT OF CERTIORARI contains 8887 words, including the parts of the brief that are required or
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
December 14, 2020

SCP Tracking: Battaglia-4608 Brookside Drive-Cover White

